OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID's
IMPLEMENTATION OF KEY
COMPONENTS OF A PRIVACY
PROGRAM FOR ITS
INFORMATION TECHNOLOGY
SYSTEMS
AUDIT REPORT NO. A-000-06-003-P
June 8, 2006




WASHINGTON, DC

Office of Inspector General


June 8, 2006

MEMORANDUM

TO:                 A-AA/M, Mosina Jordan
                    AA/LPA, J. Edward Fox

FROM:               AIG/A, Joseph Farinella /s/

SUBJECT:            Audit of USAID's Implementation of Key Components of a Privacy Program for its
                    Information Technology Systems (Report No. A-000-06-003-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and have included your response (excluding the attachment) in its
entirety in Appendix II.

This report contains nine recommendations to help USAID improve its privacy program over its
information technology systems. Based on your response and the supporting documentation
provided, final action has been taken on Recommendation No. 1. In addition, management
decisions have been reached on Recommendation Nos. 2 through 8. Please notify the Bureau
for Management’s Audit, Performance and Compliance Division when final action is completed.

Again, I want to express my sincere appreciation for the cooperation and courtesies extended to
my staff during this audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results......................................................................................................................1


Background....................................................................................................................................2


Audit Objective.................................................................................................................................2


Audit Findings................................................................................................................................3


     USAID Did Not Implement Key Components of
     a Privacy Program .....................................................................................................................3


Evaluation of Management Comments.....................................................................................16


Appendix I – Scope and Methodology......................................................................................17


Appendix II – Management Comments .....................................................................................18

SUMMARY OF RESULTS

The Information Technology and Special Audits Division of the Office of Inspector General in
Washington, D.C. initiated this audit to address selected privacy reporting requirements outlined
in the E-Government Act of 2002 and the Privacy Act of 1974. (See page 2.)

Overall, this audit found that USAID did not implement key components of a privacy program for
its information technology systems to mitigate the risk of violations against key information
technology privacy requirements. Specifically, USAID did not have a:

•	     Privacy management structure, including:

       o	     A key privacy official with full authority over the Agency’s privacy program, as
              required.
       o	     Other privacy roles and corresponding responsibilities.

•	     Comprehensive set of privacy policies and procedures, including:

       o	     Privacy policies and procedures fully referenced to other requirements .
       o	     Procedures for privacy impact assessments.
       o	     Procedures for responding to privacy violations.

•	     Privacy training and awareness program.

•	     Process to monitor compliance with privacy requirements, including:

       o	     Updates to and creation of System of Records Notices.
       o	     Agency-funded websites. (See pages 3-13.)

These weaknesses occurred primarily because USAID officials did not consider privacy to be a
high priority and, therefore, did not take actions to correct known weaknesses . (See
pages 13-14.) As a result, USAID did not always protect personally identifying information
about the public. (See page 13.)

As such, we are making nine recommendations to help USAID develop and implement a privacy
program for its information technology systems. (See pages 6-15.)

USAID management agreed to take corrective action on all nine recommendations in the report.
Based on your response and the supporting documentation provided, final action has been
taken on Recommendation No. 1. In addition, management decisions have been reached on
Recommendation Nos. 2 through 8. (See page 16.)




                                                                                               1
BACKGROUND

The Privacy Act of 1974 was created in response to concerns about the collection and use of
personal information, which might impact an individual’s privacy rights. The Privacy Act states
that each agency that maintains a system of records1 shall retain only such information about an
individual as is relevant and necessary to accomplish a purpose of the agency.

In addition, the E-Government Act of 2002 was signed by the President on December 17, 2002,
and became effective on April 17, 2003. The privacy objective of the E-Government Act
complements the National Strategy to Secure Cyberspace. As the National Strategy indicates,
privacy policies and practices in the federal agencies will ensure that information is handled in a
manner that maximizes privacy.

Section 208 of the E-Government Act of 2002 requires that the Office of Management and
Budget (OMB) issue guidance to agencies on implementing the privacy provisions of the
E-Government Act. Accordingly, OMB issued Memorandum M-03-22, “OMB Guidance for
Implementing the Privacy Provisions of the E-Government Act of 2002,” dated September 26,
2003. According to the Memorandum, federal agencies are required to, among other things:
(1) conduct privacy impact assessments for electronic information systems and collections and,
in general, make them publicly available and (2) post privacy policies on agency websites used
by the public.

In order for an Agency to have a viable privacy program, there are several essential elements
that must be present: (1) a privacy management structure; (2) policies and procedures,
including violation response; (3) awareness and training; and (4) monitoring compliance.

AUDIT OBJECTIVE
This audit was initiated to address selected privacy reporting requirements outlined in the
E-Government Act of 2002 and the Privacy Act of 1974. As such, this audit was added to the
Office of Inspector General’s annual audit plan to answer the following question:

       Did USAID implement key components of a privacy program for its
       information technology systems to mitigate the risk of violations against
       key information technology privacy requirements?

For this audit, “key components” of a privacy program are (1) privacy management structure
(including clear assignment of roles and responsibilities); (2) policies and procedures, including
violation response; (3) awareness and training; and (4) monitoring compliance.

A description of our scope and methodology is contained in Appendix I.




1
  A system of records is a group of records that maintains personally identifying information about an
individual.


                                                                                                     2
AUDIT FINDINGS

USAID did not implement key components of a privacy program for its information technology
systems to mitigate the risk of violations against key information technology privacy
requirements.

Specifically, USAID did not have a:

•	       Privacy management structure, including:

         o	      A key privacy official with authority over the Agency’s privacy program, as
                 required.
         o	      Other privacy roles and corresponding responsibilities.

•	       Comprehensive set of privacy policies and procedures, including:

         o	      Privacy policies and procedures fully referenced to other requirements .
         o	      Procedures for privacy impact assessments.
         o	      Procedures for responding to privacy violations.

•	       Privacy training and awareness program.

•	       Process to monitor compliance with privacy requirements, including:

         o	      Updates to and creation of System of Records Notices.
         o       Agency-funded websites.

The following section discusses this issue in detail.


USAID Did Not Implement Key
Components of a Privacy Program

     Summary: USAID did not implement key components of a privacy program for its
     information technology systems to mitigate the risk of violations against key
     information technology privacy requirements. Specifically, USAID did not have a
     (1) privacy management structure, (2) comprehensive set of privacy policies and
     procedures, (3) privacy training and awareness program, and (4) process to
     monitor compliance with privacy requirements. These weaknesses occurred
     primarily because USAID officials did not consider privacy to be a high priority and,
     therefore, did not take actions to correct known weaknesses. As a result, USAID
     did not always protect personally identifying information about the public.


The following discusses the key components of a privacy program that USAID needs to implement
for its information technology systems.




                                                                                             3
USAID Needs a Privacy Management Structure – According to the U.S. Government
Accountability Office’s (GAO) “Standards for Internal Control in the Federal Government,” one
factor affecting the control environment is the agency’s organizational structure. Organizational
structure provides management’s framework for (1) planning, (2) directing; and (3) controlling
operations to achieve agency objectives. Thus, a strong internal control environment requires that
the agency’s organizational structure clearly define key areas of authority and responsibility and
establish appropriate lines of reporting.

However, as discussed in the following sections, USAID did not (1) appoint a key Agency
privacy official with authority over the Agency’s privacy program, as required, and (2) assign
other privacy roles and responsibilities. [See “Cause of Problems Identified” section (pages 13­
14) for a discussion of the reason USAID did not have a privacy management structure in
place.]

       Key Agency Privacy Official Needed – Office of Management and Budget
Memorandum (OMB) M-05-08, “Designation of Senior Agency Officials for Privacy”
(February 11, 2005) and section 522 of the Consolidated Appropriations Act of 2005 require
Agencies to appoint a key Agency privacy official. However, although USAID designated a
Senior Agency Official for Privacy (SAOP) and a Privacy Act Officer (PAO), neither was
delegated authority over the Agency’s privacy program, as required. The following section
discusses this issue in detail.

Executive Order 13353, Section 1 (August 27, 2004) was enacted to:

       …protect the legal rights of all Americans, including freedoms, civil liberties, and
       information privacy guaranteed by Federal law, in the effective performance of
       national security and homeland security functions.

OMB Memorandum M-05-08, implemented Executive Order 13353, Section 1.                    The
Memorandum required each Agency to appoint a senior official who will have overall agency-
wide responsibility for information privacy issues. According to the Memorandum, that
appointee should be the Agency’s Chief Information Officer or another senior official at the
Assistant Secretary equivalent level. Further, the Memorandum states that:

       …the senior agency official will have overall responsibility and accountability for
       ensuring the agency’s implementation of information privacy protections,
       including the agency’s full compliance with federal laws, regulations, and policies
       relating to information privacy, such as the Privacy Act.

In addition, the Memorandum states that the Senior Agency Official for Privacy (SAOP) shall
have a central role in overseeing, coordinating, and facilitating the agency’s compliance efforts.

In July 2005, USAID appointed a SAOP, who assumed overall responsibility for policy relating to
Agency information privacy issues, including collection, use, sharing, and disclosure of personal
information. However, the Agency did not give the SAOP authority to oversee USAID’s privacy
program as required by OMB Memorandum M-05-08. For example, USAID’s SAOP was not
given responsibility for:

•	     Reviewing the Agency’s information privacy procedures.
•	     Identifying methods to use technology to reinforce and sustain the privacy of personal
       information.


                                                                                                4
•	     Ensuring privacy training and education for Agency employees and contractors.
•	     Conducting periodic reviews to promptly identify privacy deficiencies, weaknesses, or
       risks.

In addition, although the SAOP was given responsibility for reviewing information privacy policy
issues, the SAOP did not have overall authority to manage USAID’s privacy program.

As a result of not being assigned all of the privacy roles and responsibilities identified in OMB
Memorandum M-05-08, the SOAP could not enforce privacy requirements. For example, the
SAOP developed privacy impact assessments (PIAs) for nine of USAID’s critical systems which
collect personally identifying information. The PIAs were provided to the appropriate privacy
official so that they could be processed and published in the Federal Register. However, the
SAOP later learned that, due to other priorities, the PIAs were not processed for publication in
the Federal Register. Moreover, the SAOP did not have the authority to enforce the requirement
to process and publish the PIAs because, as illustrated in Chart 1 below, he did not have a
direct line of authority to require other privacy officials, such as the Privacy Act Officer (PAO)
and the official in charge of websites, to meet privacy requirements.


                                    Chart 1. USAID’s Privacy Related Offices



                                  This organization chart illustrates the location of privacy
                         officials within USAID. A/AID is at the top of hierarchy. Reporting
                         directly to the A/AID is the CIO. Under the CIO is the SAOP and
                         M/AS. The PAO reports directly to the M/AS. Also reporting to the
                         A/AID is the AA/LPA. LPA/PIOPS (responsible for websites) reports to
                         the AA/LPA.




               Legend:
               A/AID.................Office of the Administrator

               AA/LPA..............Assistant Administrator, Bureau for Legislative and Public Affairs

               AA/M..................Assistant Administrator, Bureau for Management

               CIO....................Chief Information Officer

               LPA/PIPOs........Bureau for Legislative and Public Affairs, Public Information, Production

                                      and On-line Services Division
               M/AS..................Bureau for Management, Administrative Services
               PAO...................Privacy Act Officer
               SAOP ................Senior Agency Official for Privacy




                                                                                                             5
In addition, section 522 of the Consolidated Appropriations Act of 2005 requires that each
agency have a Chief Privacy Officer (CPO) to assume primary responsibility for privacy and
data protection policy. As of the date of this report, OMB has not issued implementing guidance
for this Act.

In October 2005, USAID reported that the Agency had a CPO. However, it was later determined
that rather than a CPO, USAID had a Privacy Act Officer who was appointed in August 1994. That
Privacy Act Officer was responsible for:

•	     Authorizing Privacy Act requests for the Agency.
•	     Participating in the Agency’s Privacy Working Group.
•	     Updating the Automated Directives System (ADS) Chapters (508 and 509).

However, the above responsibilities do not encompass all of the responsibilities of a CPO identified
in section 522 of the Consolidated Appropriation Act of 2005. For example, the Privacy Act Officer
did not have responsibility for:

•	     Assuring that personal information contained in Privacy Act systems of records is handled
       in full compliance with fair information practices as defined in the Privacy Act of 1974.

•	     Conducting a privacy impact assessment of proposed rules of the Agency on the privacy of
       information in an identifiable form, including the type of personally identifiable information
       collected and the number of people affected.

•	     Training and educating employees on privacy and data protection policies to promote
       awareness of and compliance with established privacy and data protection policies.

•	     Ensuring that the Agency protects information in an identifiable form from unauthorized
       access, use, disclosure, disruption, modification, or destruction.

•	     Preparing a report to Congress on an annual basis on activities of the Agency that affect
       privacy, including complaints of privacy violations, internal controls, and other relevant
       matters.

As a result of not having a key Agency privacy official in place, USAID did not have an individual
with the authority to implement and enforce an Agency-wide privacy program. Moreover,
USAID did not have an individual that could be held accountable for ensuring that the Agency
adequately protected privacy information about members of the public. Therefore, we are
making the following recommendation.

       Recommendation No. 1: We recommend that USAID’s Assistant Administrator
       for the Bureau for Management, in collaboration with the Assistant Administrator
       for Legislative and Public Affairs, request that USAID’s Administrator appoint a
       senior-level, key Agency privacy official with full authority to develop and
       implement USAID’s privacy program .

(Subsequent to the issuance of our draft report, we added the word “full” to Recommendation
No. 1 to clarify the intent of the recommendation. USAID officials agreed with this change.)




                                                                                                   6
       Assignment of Other Privacy Roles and Responsibilities Needed - USAID’s ADS 508,
“Privacy Act 1974,” assigns responsibility for the Agency to meet requirements of the Privacy Act of
1974. Specifically, ADS 508 assigns roles and responsibilities to officials, including:

•      Director, Office of Administrator Services.
•      General Counsel, Ethics/Administration.
•      Privacy Officer.
•      Privacy Act Implementation Officer.
•      Privacy Coordination Officer.

However, according to the Privacy Act Officer, USAID’s privacy roles were:

•      Chief Information Officer.
•      Privacy Act Officer.
•      Chief Privacy Officer.
•      Senior Official for Privacy.
•      Privacy Advocate.

Further, in an October 2005 report2 to OMB, USAID’s key privacy roles were identified as:

•      Agency Head.
•      Chief Information Officer.
•      Agency Inspector General.
•      Chief Information Security Officer.
•      Senior Agency Official for Privacy.
•      Chief Privacy Officer.
•      Reviewing Official for privacy impact assessments.

As shown in the preceding paragraphs , USAID’s privacy roles need to be clearly defined and
updated. Moreover, once the roles are defined, the corresponding responsibilities need to be
determined. However, according to USAID officials, these updates were not made because
adequate staff and resources were not available to carry out the privacy functions.

As a result of not clearly assigning roles and responsibilities, USAID can not fully implement an
Agency-wide privacy program to protect personally identifying information about the public.
Therefore, we are making the following recommendation.

       Recommendation 2: We recommend USAID’s key Agency privacy official clearly
       assign privacy roles and define the corresponding responsibilities.


USAID Needs a Comprehensive Set of Privacy Policies and Procedures - According to GAO’s
“Standards for Internal Control in the Federal Government,” management is responsible for
developing detailed policies, procedures, and practices to fit their agency’s operations and to
ensure that they are built into an integral part of operations. Policies and procedures are control
mechanisms that enforce management’s directives to ensure that actions are taken to address
risks.

2
 This information was reported in USAID’s fiscal year 2005 Federal Information Security Management Act
and Privacy Management Report.


                                                                                                    7
However, as discussed below, USAID did not have a comprehensive set of privacy policies and
procedures. Specifically, USAID’s privacy policies and procedures were not fully referenced to
other requirements . In addition, USAID did not have procedures for conducting privacy impact
assessments and responding to privacy violations. [See “Cause of Problems Identified” section
(pages 13-14) for a discussion of the reason USAID did not have a comprehensive set of
privacy policies and procedures in place.]

       Privacy Policies and Procedures Need to be Fully Referenced to Other
Requirements – According to ADS 501, “The Automated Directives System ,” mandatory
references to the ADS comprise of external references as well as Agency guidance that must be
adhered to. In addition, according to “The ADS Process: A Mandatory Reference for ADS
Chapter 501,” such references must be cited in ADS chapters and will be hyperlinked.

USAID’s privacy policies and procedures are described in various ADS chapters, interim updates,
and Agency notices. However, the privacy policies and procedures were not fully referenced to
indicate that other privacy policies exist.

For example:

•	     ADS 508, “Privacy Act – 1974,” section 508.5.6, states that USAID shall publish in the
       Federal Register a description of each system of records that the Agency maintains. In
       addition, ADS 509, “Creating, Altering, or Terminating a System of Records (Records
       Pertaining to Individuals),” outlines the policies and essential procedures for the creation,
       alteration, or termination of a System of Records that meets the requirements of the Privacy
       Act. However, there were no references between the two chapters to indicate to the reader
       that USAID had additional policies and procedures for Systems of Records.

•	     ADS 557, “Public Information,” was established to, among other things, provide the policy
       for Agency information distributed to the public, including via the Internet. In addition,
       Interim Update 04-01, “Updated Privacy Policy for USAID Information Technology
       Systems, Including Publicly Accessible Web Sites,” was issued to alert USAID
       employees and contractors of their responsibilities under the E-Government Act of 2002
       for, among other things, designing and creating web pages and web sites. However,
       although the Interim Update states that it is a mandatory reference to ADS 557, the
       Interim Update was not referenced in ADS 557.

As such, because the policies were not fully referenced, readers could easily overlook other critical
aspects that were needed to meet privacy requirements. Although, on USAID’s intranet, the ADS
home page referenced some of its privacy policies, we are making the following recommendation
to assist USAID in referencing its privacy policies and procedures.

       Recommendation No. 3: We recommend that USAID’s key Agency privacy official
       completely reference the Agency’s privacy policies and procedures to other
       requirements in the Automated Directives System.


       Procedures for Privacy Impact Assessments Needed – OMB defined a privacy
impact assessment (PIA) as an analysis of how information is handled to (1) ensure handling
conforms to applicable legal, regulatory, and policy requirements regarding privacy;



                                                                                                   8
(2) determine the risks and effects of collecting, maintaining and disseminating information in
identifiable form in an electronic information system; and (3) examine and evaluate protections
and alternative processes for handling information to mitigate potential privacy risks.

The E-Government Act of 2002, requires Agencies to complete PIAs prior to (1) developing or
procuring information technology systems or projects that collect, maintain or disseminate
information in identifiable form about an individual, or (2) initiating, consistent with the
Paperwork Reduction Act, a new electronic collection of information in identifiable form for 10 or
more persons excluding agencies, instrumentalities or employees of the federal government.
Specifically, Agencies are required to:

•	     Conduct PIAs .
•	     Ensure the Chief Information Officer (or equivalent official) reviews the PIAs.
•	     Make the PIAs publicly available through the website of the agency, publication in the
       Federal Register, or other means.

In addition, OMB Memorandum M-03-22, “OMB Guidance for Implementing the Privacy
Provisions of the E-Government Act of 2002” (September 26, 2003) requires that PIAs be
performed and updated, as necessary, when a system change creates new privacy risks.

USAID has various policies that describe PIAs. Specifically:

•	     ADS 545.3.1.6, “System Development Life Cycle (SDLC) Planning,” makes the system
       owner responsible for conducting PIAs.
•	     USAID’s Interim Update 04-01, “Updated Privacy Policy for USAID Information
       Technology Systems, Including Publicly Accessible Web Sites” alerted USAID
       employees and contractors who develop or manage information technology on behalf of
       USAID of their responsibilities to perform PIAs as described in OMB M-03-22 (discussed
       above).
•	     Mandatory references to ADS 577, “Information Technology Capital Planning and
       Investment Control,” require that, as part of the information technology investment
       process, a determination be made as to whether a PIA has been conducted.

(USAID also has a handbook that discusses some aspects of conducting PIAs, but the
handbook was not up-to-date and was not incorporated into official Agency policy and
procedures ). However, none of the aforementioned policies describe procedures to ensure
PIAs are conducted when required. Specifically, the policies do not address:

•	      How the complete inventory of systems of records will be obtained and maintained.
•	      What collection of personal information (e.g., name, address, phone number, e-mail
        address) maintained in a system necessitates the need for a PIA.
•	      Who within the Agency has overall responsibility for ensuring that PIAs are conducted
        and made available to the public.
•	      Who within the Agency is responsible for reviewing and approving PIAs.
•	      Who the PIAs must be submitted to upon completion.
•	      What mechanism the Agency will use to make the PIAs available to the public.

As a result of the above deficiencies, USAID did not have a complete inventory of systems
requiring PIAs . Moreover, USAID could not assure that PIAs were conducted and made
available to the public, when required. This problem was particularly prevalent with respect to


                                                                                                9
Agency websites—many of which collected personally identifying information from the public,
such as names, addresses, phone numbers, and e-mail addresses. For example, one website
collected personal information from users who were ordering products. Another website
collected personal information from users who provided comments, suggestions or questions.
Yet another site collected personal information when the user created a new account for giving
monetary donations. Therefore, we are making the following recommendation.

       Recommendation No. 4: We recommend USAID’s key Agency privacy official
       develop and implement Agency-wide procedures for performing privacy impact
       assessments.


        Privacy Violation Response Procedures Needed – According to GAO’s “Standards
for Internal Control in the Federal Government,” internal controls deficiencies should be
communicated to the individual responsible for the function and also to at least one level of
management above that individual. In addition, managers must take proper actions to ensure
deficiencies are promptly resolved. Further, serious deficiencies should be reported to top
management.

However, USAID did not develop procedures for responding to privacy violations. For example,
USAID did not:

•	     Identify the offices (such as the Bureau for Legislative and Public Affairs, the Office of
       General Counsel, Office of Inspector General, Office of Information Resources
       Management, Office of Security, or Office of Human Resources) that should be
       contacted when a violation is identified.
•	     Determine the roles and responsibilities of the various offices involved in responding to
       privacy violations.
•	     Describe the type of information that should be reported.
•	     Determine how lessons learned will be communicated (e.g., via training) to prevent
       future reoccurrences of similar privacy violations.

For example, two websites were identified that inappropriately tracked users. In response, the
Chief Information Officer’s staff began to work with owners of the websites to correct the
problems. However, when the incidents were brought to the attention of an Legislative and
Pubic Affairs official, he thought that it was his office’s responsibility to work with the owners of
the website to correct the problem. Subsequently, upon reviewing Interim Notice #34, “USAID’s
Division of Responsibilities for USAID External Web Site,” (July 12, 2000) that official agreed
that it was not clear who was responsible for working with the website owners to correct the
problems.

Without clear procedures for responding to privacy violations, USAID personnel were not
informed of what actions should be taken to communicate and correct privacy problems.
Moreover, USAID did not have a clear mechanism in place to prevent future recurrences of
similar problems. Therefore, we are making the following recommendation.




                                                                                                  10
          Recommendation No. 5: We recommend that USAID’s key Agency privacy official
          develop and implement procedures for responding to privacy violations. At a
          minimum, the procedures should include:

          •	      Identifying the offices that should be contacted when a violation is
                  identified.
          •	      Determining the roles and responsibilities of the various offices involved
                  in responding to privacy violations.
          •	      Describing the type of information that should be reported.
          •	      Determining how lessons learned will be communicated to prevent future
                  reoccurrences of similar privacy violations.

(Subsequent to the issuance of our draft report, we added the second sentence to
Recommendation No. 5 and the corresponding bullets to help ensure that USAID’s planned
corrective actions would be responsive to the problems discussed in the report. USAID officials
agreed with this change.)


USAID Needs a Privacy Training and Awareness Program - GAO Standards for Internal
Control in the Federal Government requires that management ensure that its workforce’s skills are
continually assessed. Training should be aimed at developing and retaining employee skill levels
to meet challenging organizational needs.

However, USAID did not have a privacy training program in place. Specifically, although USAID
developed 16 privacy Tips of the Day3 for creating an awareness of privacy requirements to
network users, only two were approved by the Office of the General Counsel for distribution to
USAID employees. Moreover, those two tips were not distributed to all USAID personnel. As a
result of not having a privacy training and awareness program, USAID’s employees did not comply
with requirements for protecting the privacy of the public. For example:

•	        PIAs were not always conducted on systems that collected personally identifying
          information.
•	        System of Records Notices were not always published in the Federal Register.
•	        Websites did not always contain required privacy policy disclosures .
•	        Unapproved tracking mechanisms were identified on USAID websites.

Therefore, the privacy of the public was not fully protected. [See “Cause of Problems Identified”
section (pages 13-14) for a discussion of the reason USAID did not have a privacy training and
awareness program in place.] As such, we are making the following recommendation.

          Recommendation No. 6: We recommend that USAID’s key Agency privacy official
          develop and implement an Agency-wide privacy training program.

USAID Needs a Process to Monitor Compliance With Privacy Requirements - GAO
Standards for Internal Control in the Federal Government states that ongoing monitoring of
internal controls should occur in the course of normal operations and should be built into the
agency’s operations. It also states that monitoring of internal control should include policies and
procedures for ensuring that problems identified are promptly corrected.

3
    Tips of the Day provide daily computer security reminders to USAID network users.


                                                                                                11
However, as discussed below, USAID needs to develop and implement a process to ensure
ongoing monitoring of its privacy program. [See “Cause of Problems Identified” section (pages
13-14) for a discussion of the reason USAID did not have a process in place to monitor
compliance with privacy requirements.]

       Monitoring Updates and Creation of System of Records Notices – According to the
Privacy Act of 1974, each Agency that maintains a system of records must publish notification in
the Federal Register upon establishment of the system. In addition, the notice must be revised
when the system is modified.

In addition, ADS 509, “Creating, Altering, or Terminating a System of Records (Records Pertaining
to Individuals),” outlines the policies and essential procedures for the creation, alteration, or
termination of a System of Records that meets the requirements of the Privacy Act.

However, USAID did not follow its procedures to update its System of Records Notices
(SORNs), when required. As such, the SORNs, dated March 31, 1980, were not updated to
reflect the Agency’s current systems of records. For example, the SORNs currently published in
the Federal Register, state that several of the systems of records are located in offices that
USAID no longer occupies in Virginia and Washington, D.C. However, the required updates to
the records were not made and published in the Federal Register. In addition, USAID recently
conducted PIAs for nine systems of records, but did not prepare and publish SORNs in the
Federal Register.

As a result of not monitoring the updating and publishing of SORNs, the public was not made
aware of the types of personally identifying information that USAID maintained. Therefore, we are
making the following recommendation.

       Recommendation No. 7: We recommend that USAID’s key Agency privacy official
       develop and implement a process to monitor the timely preparation and publishing
       of System of Records Notices in the Federal Register.

        Monitoring of Websites – ADS 557, “Public Information,” (July 25, 2000) provides
USAID’s policy for, among other things, Agency information distributed to the public. According
to that policy, USAID’s Bureau for Legislative and Public Affairs is responsible for reviewing
Agency produced or funded materials available to the public on the Internet. The policy also
states that USAID Bureaus, Offices, and officers are responsible for submitting Agency-funded
or produced material for review prior to posting it to the Internet.

In July 2002, USAID issued an interim update No. 34 to ADS 557 “Division of Responsibilities
for USAID External Web Site.” That interim update was issued to restate the division of
responsibility for the USAID external web site and to amplify the matters in ADS 557. However,
the interim update discusses only USAID’s external web site (i.e., www.usaid.gov), as opposed
to all USAID-funded websites as discussed in ADS 557.

As such, USAID performed extensive monitoring to ensure that information posted on USAID’s
external web site met requirements. For example, USAID performed (1) content and technical
reviews, including the privacy policy, before pages were added to the website and (2) periodic
scans to determine whether unauthorized persistent mechanisms were placed on the site.



                                                                                              12
In contrast, USAID only recently began to perform limited monitoring for other Agency-funded
websites. Specifically, after this audit began, USAID took initial steps to start scanning other
Agency-funded websites for inappropriate tracking mechanisms. However, USAID did not
monitor the content of those websites, such as the privacy policies. According to a Bureau for
Legislative and Public Affairs official, USAID would need additional staff and funding to monitor
all of the Agency-funded websites.

As a result, privacy problems were prevalent on other Agency-funded websites. For example,
of the 13 websites selected for review:

•	     Three (23 percent) did not have the privacy policy posted on the website to inform the
       user of the nature, purpose, use and sharing of personally identifying information that is
       collected by the Agency. Moreover, seven of the websites (54 percent) with privacy
       policies posted did not make most of the disclosures required by OMB Memorandum M­
       03-22” OMB Guidance for Implementing the Privacy Provisions of the E-Government Act
       of 2002” (September 26, 2003). Such disclosures not made included notifying visitors of
       their privacy rights and what personally identifying information is collected. However, the
       privacy policy posted on USAID’s external website made most of the required
       disclosures.

•	     Two (15 percent) placed unapproved tracking mechanisms on the user’s computer. In
       addition, eight (62 percent) websites left the USAID-funded website—without a
       warning—and launched other websites that placed tracking mechanisms on the user’s
       computer. However, no problems were identified with USAID’s external website.

•	     Twelve (92 percent) of the websites were not on the .gov domain as required by
       USAID’s November 28, 2005, Policy Notice, “USAID Websites and .gov Domains.”
       According to OMB M-05-04 “Policies for Federal Agency Public Websites, “ December
       17, 2004, hosting the websites on the .gov domain provides the public clear,
       unambiguous notification of the Agency’s sponsorship of the website. By not hosting the
       websites on the .gov domain, members of the public were not assured that the
       websites—most of which collected personally identifying information—were official
       Agency websites.

As such, the privacy of public users was sometimes invaded when using other Agency-funded
websites. Moreover, such site users were not always made aware of how such personally
identifying information would be used, if collected.

Although USAID has begun to take some actions to monitor other Agency-funded websites, we
are making the following recommendation to help the Agency ensure the protection of the
public’s privacy when using Agency-funded websites.

       Recommendation No. 8: We recommend that USAID’s key Agency privacy
       official establish a process to monitor Agency-funded websites to ensure the
       privacy of website users is protected.


Cause of Problems Identified – USAID management was aware of the weaknesses in its
privacy program. However, as discussed below, corrective action was not taken because
privacy was not considered a priority for the Agency.



                                                                                               13
In the past few years, several reports and reviews have been conducted that identified
weakness in USAID’s privacy program. For example, in December 2001, a USAID contractor
reported on its evaluation of gaps in USAID’s systems of records and privacy program. That
report determined that, USAID’s:

•	     Infrastructure for complying with privacy requirements was immature.
•	     Implementation and operations of the privacy policies was inconsistent.
•	     Approach to privacy needed to be customer-oriented, such as by providing training and
       awareness.

As such, the report made several recommendations for USAID to improve on areas of the
privacy program, including the responsibility and organization, training, accountability, policy,
and compliance. Additionally, the report made numerous recommendations to address specific
non-compliance issues, such as with deficiencies in system of record notices.

In addition, on September 11, 2002, the Office of Inspector General issued “Risk Assessment of
Major Functions Within the Information and Records Division of the Office of Administrative
Services, Bureau for Management” (Report No. A-000-02-003-S). That report concluded that
some ADS chapters were outdated and the Agency’s system of record notices needed to be
updated. Therefore, the report suggested that the Office of Administrative Services institute
improvements regarding the ADS chapters and the inventory of systems of records. USAID
management agreed with the suggested course of actions for the ADS chapter. However, for
the systems of records notices, USAID management responded that there were not enough
manpower resources to correct this inadequacy.

In addition, although USAID management was aware of the weaknesses in its privacy program,
correcting the weaknesses was not a USAID priority. For example, USAID’s prior Senior
Agency Official for Privacy developed a privacy upgrade Action Plan, dated March 1, 2001.
That action plan identified some of the same problems identified in this audit, such as the need
to (1) clarify privacy roles and responsibilities, (2) implement a privacy training and outreach
program, and (3) document an integrated privacy policy for the Agency. However, according to
USAID management, staffing and funding limitations precluded the Agency’s ability to
implement a privacy program.

Nonetheless, in recent years, Congress, OMB, and private interest groups have directed an
increased focus on privacy issues. For example, Section 522 of the 2005 Consolidated
Appropriations Act requires the Inspector General to conduct an annual review of agency
privacy practices.

Therefore, we believe it is imperative that USAID managers continue to better prioritize the
workload and mandatory tasks. Specifically, USAID needs to implement an Agency-wide
privacy program to meet the mandated requirements to protect the privacy of the public and,
thus, protect the Agency’s reputation. Due to the extensive weaknesses identified in USAID’s
privacy program, Agency officials need to make privacy a priority by promptly taking corrective
actions to address the recommendations made in this audit report. Thus, USAID should
recognize its privacy program as a reportable condition to be internally tracked and monitored
until the weaknesses are corrected.




                                                                                              14
Recommendation No. 9: We recommend that USAID’s key Agency privacy
official request that the Management Control Review Committee review the
Agency’s privacy program and consider reporting, tracking, and monitoring its
weaknesses as a reportable condition for the Agency.




                                                                                15
EVALUATION OF MANAGEMENT
COMMENTS
USAID management agreed to take corrective action on all nine recommendations in the report.
For Recommendation Nos. 2, 3, 4, 5, 6, 7, 8, and 9, USAID management provided corrective
action plans and target completion dates. Therefore, we consider that management decisions
have been reached for the above recommendations. In addition, based on the response and
supporting documentation provided, final action has been taken on Recommendation No. 1
upon issuance of this report. Specifically, we recommended that Agency officials request
USAID’s Administrator to appoint a senior-level, key Agency privacy official with full authority to
develop and implement USAID’s privacy program. In response, Agency officials requested that
USAID’s Administrator appoint a Chief Privacy Officer to assume primary responsibility for
establishing the Agency’s privacy program in accordance with privacy laws and regulations.

Aside from addressing the recommendations, USAID management stated that the discussion
about the use of non-.gov domains for Agency funded websites (before recommendation no. 8),
is not relevant to the privacy of information technology systems. However, we believe that
maintaining websites on the .gov domain as required provides a level of assurance to users that
the site is an official USAID website—especially if the user chooses to provide personally
identifying information. Although we did not remove this discussion from the audit report, we
referenced OMB M-05-04, “Policies for Federal Agency Public Websites, “ December 17, 2004,
which states that hosting the websites on the .gov domain provides the public clear,
unambiguous notification of the Agency’s sponsorship of the website.

The complete text of USAID’s management comments is included in Appendix II.




                                                                                                16
                                                                                     APPENDIX I




SCOPE AND METHODOLOGY
Scope
The Office of Inspector General, Information Technology and Special Audits Division conducted
this audit in accordance with generally accepted government auditing standards. The purpose
of the audit was to determine whether USAID implemented key components of a privacy
program. Audit fieldwork was conducted at USAID headquarters in Washington, D.C., from
December 6, 2005 through April 5, 2006.

The audit included a follow up on prior audit recommendations contained in Report
No. A-00-01-001-P, “Audit of USAID’s Compliance with Internet Privacy Policies,” dated May 14,
2001).

In addition, we tested the following internal controls in USAID’s privacy program:

•      Privacy management structure.

•      Policies and procedures, including violation response.

•      Awareness and training.

•      Monitoring compliance.

Methodology
To determine if USAID implemented key components of a privacy program we obtained and
reviewed the following laws and regulations: E-Government Act of 2002; The Privacy Act of
1974; and the Office of Management and Budget Memorandum M-03-22, “OMB Guidance for
Implementing the Privacy Provisions of the E-Government Act of 2002,” dated September 26,
2003.

In addition, we conducted interviews with key USAID privacy personnel in the Bureau for
Management, Office of Administrative Services; Office of the Chief Information Officer; Bureau
of Legislative and Public Affairs; and Office of General Counsel. However, we did not interview
or evaluate Privacy Liaison Officers at USAID Missions.

We asserted the necessary components of a privacy program are (1) privacy management
structure (including clear assignment of roles and responsibilities), (2) policies and procedures
(including violation response), (3) awareness and training, and (4) monitoring compliance. For
each component, we obtained and reviewed USAID documents including, but not limited to:
(1) privacy impact assessments, (2) Privacy Tips of the Day, (3) System of Records Inventory,
(4) System of Records Notices, and (5) USAID’s privacy policies and procedures.

Finally, although USAID’s universe of websites was incomplete, we selected a judgmental
sample of 13 USAID funded-websites that contained USAID’s logo and were updated as of
September 1, 2005, and tested compliance with privacy policy disclosures and use of tracking
mechanisms.


                                                                                          17

                                                                                  APPENDIX II





MANAGEMENT COMMENTS




                                                                                May 23, 2006

MEMORANDUM

TO: 	         IG/A/ITSA, Melinda A. Dempsey

FROM:	        C/AID, Mosina Jordan “/s/”
              AA/LPA, J. Edward Fox “/s/”

SUBJECT:	     Management Response to the OIG Draft Report on the Audit of USAID's
              Implementation of Key Components of a Privacy Program for its Information
              Technology Systems (Report No. A-000-06-00X-P)

Thank you for the opportunity to respond to the draft audit report. This memorandum
contains the management decisions for the Draft Audit of USAID’s Implementation of
Key Components of a Privacy Program for its Information Technology Systems.

There is one issue outside the recommendations that we would like to bring to your
attention for consideration. This issue is described at the end of management’s
responses to the recommendations. Management would appreciate if the audit team
could consider this issue and make appropriate changes while finalizing its audit report.

The following are our management decisions and corrective actions regarding the
proposed audit recommendations:

Recommendation No. 1: We recommend that USAID’s Assistant Administrator for the Bureau
for Management, in collaboration with the Assistant Administrator for Legislative and Public
Affairs, request that USAID’s Administrator appoint a senior-level, key Agency privacy official
with full authority to develop and implement USAID’s privacy program.

Management Response: An Action Memorandum to the Administrator, was sent from Mosina
Jordan and Edward Fox, the Bureaus for Management and Legislative and Public Affairs
requesting the Administrator’s appointment of a Chief Privacy Officer (CPO).

We request closure of Recommendation One upon issuance of the final audit report. A copy of
the executed Memoranda is attached.



                                                                                         18
Recommendation 2: We recommend USAID’s key Agency privacy official clearly assign
privacy roles and define the corresponding responsibilities.

Management Response : The USAID CPO will issue a new ADS Chapter, USAID Privacy
Program, to assign the Agency’s privacy roles and define corresponding responsibilities.
(October 2006)

Recommendation No. 3: We recommend that USAID’s key Agency privacy official completely
reference the Agency’s privacy policies and procedures to other requirements in the Automated
Directives System.

Management Response: The new ADS Chapter, USAID Privacy Program, will reference
USAID privacy-related policies and procedures in the Automated Directives System (ADS), as
well as OMB privacy policy directives. (October 2006)

Recommendation No. 4: We recommend USAID’s key Agency privacy official develop and
implement Agency-wide procedures for performing privacy impact assessments.

Management Response : The USAID CPO will develop formal procedures for performing
privacy impact assessments as supporting documentation to the new ADS Chapter on Privacy.
The existing draft Privacy Impact Assessment (PIA) template used for PIAs will be incorporated
as part of this procedure document. (October 2006)

Recommendation No. 5: We recommend that USAID’s key Agency privacy official develop and
implement procedures for responding to privacy violations. At a minimum, the procedures will
include:

   •	 Identifying offices that must be contacted when a violation is identified;
   •	 Determining the roles and responsibilities of the offices involved in responding to privacy
      violations;
   •	 Describing the type of information that should be reported; and
   •	 Determining how lessons learned will be communicated to prevent future reoccurrences
      of similar privacy violations.

Management Response : The USAID CPO will develop a supporting document to the new
ADS Chapter on Privacy that defines procedures for responding to privacy violations. (October
2006). At a minimum, the procedures will include:

   •	 Identifying offices that must be contacted when a violation is identified;
   •	 Determining the roles and responsibilities of the offices involved in responding to privacy
      violations;
   •	 Describing the type of information that should be reported; and
   •	 Determining how lessons learned will be communicated to prevent future reoccurrences
      of similar privacy violations.

Recommendation No. 6: We recommend that USAID’s key Agency privacy official develop and
implement an Agency-wide privacy training program.

Management Response: The USAID CPO will develop an Agency-wide privacy training
program. Current implementation of the security awareness training includes elements of the


                                                                                              19
privacy program. This will be more fully expanded. (October 2006)

Recommendation No. 7: We recommend that USAID’s key Agency privacy official develop and
implement a process to monitor the timely preparation and publishing of System of Records
Notices in the Federal Register.

Management Response: The USAID CPO will develop a process to monitor the timely
preparation and publishing of System of Records Notices in the Federal Register. The process will
be defined in the new ADS Chapter on Privacy. (October 2006)

Recommendation No. 8: We recommend that USAID’s key Agency privacy official establish a
process to monitor Agency-funded websites to ensure the privacy of website users is protected.

Management Response : The USAID CPO, in coordination with the review process outlined in
ADS 557, will establish a process to monitor Agency-funded websites, ensuring privacy protection
of website users. (October 2006)

Recommendation No. 9: We recommend that USAID’s key Agency privacy official request
that the Management Control Review Committee (MCRC) review the Agency’s privacy program
and consider reporting, tracking, and monitoring its weaknesses as a reportable condition for
the Agency.

Management Response : The USAID CPO will report progress on the recommendations in this
report to the MCRC for review before their next meeting. The CPO’s report will permit MCRC to
track, monitor and determine whether progress of USAID’s privacy program in resolving
weaknesses is a reportable condition. (September 2006)

Issue for Consideration Outside Recommendations: Management notes that in the
discussion before recommendation 8, the audit team discusses USAID-financed websites on
non-.gov domains. We do not view this discussion—in the context of privacy issues—as
relevant to the topic of privacy of information technology systems. The Office of Management
and Budget, in OMB Memorandum 05-04, frames the .gov issue in the terms of information
quality and information assurance—not in terms of privacy. Residing on a .gov domain has no
impact on one way or the other on the privacy of an information technology system user.
Management requests that this discussion be removed from the draft report as not relevant to
the immediate decision.




                                                                                              20
U.S. Agency for International Development
          Office of Inspector General
          1300 Pennsylvania Ave, NW

             Washington, DC 20523

              Tel: (202) 712-1150

              Fax: (202) 216-3047

              www.usaid.gov/oig
